OIG Audit Report GR-60-07-008

Office of Community Oriented Policing Services Grant to the San Juan Southern Paiute Tribe
Tuba City, Arizona, Grant Number 97-UM-WX-1382

Audit Report GR-60-07-008 


September 2007
Office of the Inspector General


Executive Summary




U.S. Department of Justice
Office of the Inspector General
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, Colorado 80203
 July 20, 2007 



MEMORANDUM FOR 
CARL R. PEED 
	DIRECTOR 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES


FROM: 
DAVID M. SHEEREN
REGIONAL AUDIT MANAGER


SUBJECT: 
Office of Community Oriented Policing Services Grant to the San Juan Southern Paiute Tribe  Tuba City, Arizona Grant Number 97-UM-WX-1382 Report No. GR-60-07-008


 On May 17, 2007, the Office of the Inspector General, Audit Division, issued a warning letter regarding the grant awarded to the San Juan Southern Paiute Tribe by the Office of Community Oriented Policing Services (COPS). The purpose of the letter was to advise the COPS office that attempts to contact and arrange an audit of the COPS grant awarded to the San Juan Southern Paiute Tribe (SJSP) have been unsuccessful and that critical grant records necessary for the audit are not currently available to us. The letter stated that if records were not made available, we would question the funds received by the grantee as unsupported. 
 After further unsuccessful attempts to contact representatives of the SJSP, we remain without records necessary to conduct the audit. Therefore, we are questioning $224,997 received by the SJSP under this grant. 
 The San Juan Southern Paiute Tribe, located in Tuba City, Arizona, is a small newly recognized tribe, who for the last several hundred years has lived east of the Grand Canyon, bounded by the San Juan and Colorado Rivers with the Navajo and Hopi Tribes as their neighbors. SJSP’s grant application listed its population to be 407. Also, according to the SJSP’s grant application, its most serious public safety issues are (1) vandalism, (2) agricultural crimes, (3) alcohol related crimes, and (4) domestic violence. 
 As shown in the following table, grant funds were fully drawn down according to documentation provided to us by the COPS representatives. 
 SJSP DRAWDOWNS 


Date of Drawdown 
Amount of Drawdown 


 07/12/01 
 $ 50,000 


 10/22/03 
 174,997 


 11/24/031 
 (74,997) 


 12/09/03 
 174,997 


 TOTAL 
 $224,997 


Grant guidelines require that in addition to oversight, guidance, and counsel provided by the COPS Office, grants may be subject to an audit by independent Examiners, including the Department of Justice (DOJ) Office of the Inspector General (OIG). The primary objective of OIG audits is to assess financial and program compliance with grant conditions. OIG audits are designed to promote economy, efficiency, and effectiveness in the administration of grants by evaluating compliance with laws, regulations, and policies/procedures governing the operations encompassed in the scope of the audit. 
 In addition, grant guidelines require that each grantee establish and maintain an accounting and financial records system to account accurately for funds awarded. Such a system should: 

Present and itemize approved costs of salaries and benefits, and show the actual costs of salaries and benefits; 
 Assure that funds are spent in conformance with the grant conditions; and 
 Provide the necessary information for periodic review and audit.

 The OIG has made extensive attempts to contact the SJSP’s grant representatives without success. The OIG efforts have covered all contact information from COPS grant files, information from the Bureau of Indian Affairs, information from the Tuba City, AZ Police Department, and finally extensive discussion with an Arizona law firm representing the SJSP. 
 Since we have made every diligent effort to arrange and complete the audit without success, we have no alternative but to question the full amount of the UHP grant awarded to the SJSP as unsupported. This issue requires your immediate and careful attention. 
 Recommendation: 

 Remedy the questioned costs of $224,977 due to the unavailability of the grantee’s records necessary for audit purposes. 

 ♦     ♦     ♦ 
 In accordance with Office of Management and Budget Circular A-50, Revised, and Department of Justice Order 2900.6A, titled "Audit Follow-up and Resolution Policy," audit reports are to be resolved within a 6-month time frame and can be closed only after all agreed-upon actions are completed. The Inspector General Act of 1998 requires us to report to Congress any unresolved audit reports which are over 6 months old. Therefore, please provide us within 30 days your response concerning specific actions completed or alternative corrective action proposed on the recommendations. 
 If you have questions regarding this report, please contact me at (303) 864-2000. Your cooperation is appreciated. 
 Attachment 


 ATTACHMENT I 
SCHEDULE OF DOLLAR-RELATED FINDINGS 




 Questioned Costs 
 AMOUNT 
 PAGE 


 
 
 


 Expenditures unsupported because
 of the unavailability of critical records. 
 $224,997 
 1 




 Questioned Costs are expenditures that do not comply with legal, regulatory or contractual requirements, or are not supported by adequate documentation at the time of the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of funds, or the provision of supporting documentation. 


 ATTACHMENT II 
ADDITIONAL PROGRAM BACKGROUND
 Title I of the Crime Act authorizes over $8.8 billion through FY 2000 to fund the hiring and redeployment of police officers and to enhance community policing. One-half of the program funds are designated for jurisdictions with populations of 150,000 or less and one-half for jurisdictions with populations above 150,000. COPS provided funds through the following major grant programs: 

 Accelerated Hiring, Education, and Deployment (AHEAD). This program was open to law enforcement agencies serving populations of 50,000 or more. Applicants were required to submit a "Letter of Intent to Participate" to COPS providing information regarding the number of officers requested through this grant program. COPS announced awards to jurisdictions on December 19, 1994. 
 Funding Accelerated for Smaller Towns (FAST). This program was developed by COPS, as directed by Congress, to simplify the application process to be used by jurisdictions serving populations under 50,000. Agencies were required to submit a one-page application form to apply for a grant. COPS announced awards to jurisdictions in February 1995. 
 Universal Hiring Program (UHP).  This program is open to all law enforcement agencies, regardless of the population size of the jurisdiction. All hiring grants awarded after FY 1995 were made under this program. Only those agencies that have not received another COPS hiring grant are required to submit the UHP application. Recipients of COPS FAST and COPS AHEAD grants are required to submit a UHP Officer Hiring Request form and revised budget information to be considered for a grant under this program. 
 Small Community Grant Program. This program is open to communities of less than 50,000 and supplements the Phase I, FAST, or UHP grants by paying for a portion of the fourth-year salaries and benefits of existing COPS-funded officers. These one-time grants are specifically for the retention of COPS-funded police officer positions. 
 COPS in Schools (CIS). This program is open to law enforcement agencies that are eligible to apply for funding through a UHP grant. The CIS program is designed to fund the hiring of community policing officers to work in school. The maximum award per officer is $125,000 with any remainder to be paid with state or local funds. 
 Making Officer Redeployment Effective (MORE). This program is open to all law enforcement agencies, regardless of the population size of the jurisdiction. Grants are awarded for up to 75 percent of the cost of equipment and technology, support resources (including civilian personnel), or to pay overtime.2 For each $25,000 in federal funds received, agencies are to redeploy the equivalent of one full-time sworn officer to community policing. 

 DOJ Oversight of the COPS Program
 Federal grant management entails both program management and financial management. For the COPS program, management responsibility rests with the COPS Office and the Office of Justice Programs (OJP). During the course of the program the responsibilities of the COPS Office and OJP have changed. 
 Major responsibilities of the COPS Office are to: (1) develop and announce grant programs, (2) review grant applications to decide which applicants will receive grant awards, and (3) monitor programmatic issues relating to grants. To assist in performing its responsibilities, the COPS Office requires grant recipients to submit periodic grant progress reports for review by the COPS Office. 
 Effective March 1, 2000, the COPS Office assumed responsibility for several additional duties previously performed by OJP. These responsibilities are: conducting pre-award reviews of grant application budgets, ensuring grantee compliance with the submission of accurate and timely Financial Status Reports, providing financial management technical assistance, and managing the audit resolution and closure process. OJP is responsible for disbursing federal funds to grantees. 
 For additional information about the COPS Office (including grant programs), OJP, or the Office of the Inspector General see the U.S. Department of Justice Web site (WWW.USDOJ.GOV). 



Footnotes

The following transaction was posted in error and corrected in the December 9, 2003 transaction.
Use of overtime was unallowable for grants after Fiscal Year 1995. 








Return to OIG Home Page